No. 19-1252
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CALLAN CAMPBELL, ET AL., PETITIONERS
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first class mail,
this 29th day of July 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,192 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on July 29, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 29, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1252
CAMPBELL, CALLAN, ET AL.
USA

WILLIAM THOMAS DEVINNEY
BAKER HOSTETLER LLP
1050 CONNECTICUT AVE, N.W.
WASHINGTON, DC 20036
BILL.DEVINNEY@GMAIL.COM
ROBERT H. THOMAS
DAMON,KEY, LEONG,KUPCHAK,HASTERT
1600 PAUAHI TOWER
1003 BISHOP STREET
HONOLULU, HI 96813
808-531-8031
RHT@HAWAIILAYWER.COM

